No. 19-930
================================================================================================================

In The

Supreme Court of the United States
-----------------------------------------------------------------CIC SERVICES, LLC,
Petitioner,
v.
INTERNAL REVENUE SERVICE; DEPARTMENT
OF TREASURY; UNITED STATES OF AMERICA,
Respondents.
-----------------------------------------------------------------On Writ Of Certiorari To The
United States Court Of Appeals
For The Sixth Circuit
-----------------------------------------------------------------BRIEF OF PATRICK J. SMITH
AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
-----------------------------------------------------------------PATRICK J. SMITH
Counsel of Record
IVINS, PHILLIPS & BARKER,
CHARTERED
1717 K Street, NW
Suite 600
Washington, DC 20006
202-662-3415
psmith@ipbtax.com
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
QUESTION PRESENTED
Is the petitioner’s challenge to the validity of Notice 2016-66 barred by the Anti-Injunction Act, 26
U.S.C. § 7421(a)?

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED...................................

i

TABLE OF CONTENTS ......................................

ii

TABLE OF AUTHORITIES .................................

iv

INTEREST OF AMICUS CURIAE ......................

1

SUMMARY OF ARGUMENT ..............................

2

ARGUMENT ........................................................

7

I.

The Anti-Injunction Act applies only
where the taxes that are relied on by the
government as the basis for applying the
Act are taxes that are “alleged to be [currently] due” ................................................

7

A. Williams Packing established that the
Anti-Injunction Act applies only
where the taxes involved in the suit
are taxes that are “alleged to be [currently] due” ..........................................

7

B. Bob Jones University and “Americans
United” substantially expanded the
scope of the Anti-Injunction Act far beyond suits involving “taxes alleged to
be [currently] due,” without either acknowledging or justifying this expansion ...................................................... 10
C. Direct Marketing requires a return to
the test from Williams Packing that
the Anti-Injunction Act applies only to
suits involving taxes that are “alleged
to be [currently] due.” .......................... 13

iii
TABLE OF CONTENTS – Continued
Page
D. Florida Bankers ignored the reasoning
in Direct Marketing ............................. 15
II.

The existence of the Tax Court as a forum
where taxpayers are able to contest a tax liability asserted against them by the IRS,
without first having to pay the amount of
the contested tax, very substantially undercuts the traditional rationale for the AntiInjunction Act that has been invoked in
support of a broad application of the Act .... 17

III.

The broad interpretation of the Anti-Injunction Act that was adopted in Bob Jones University and “Americans United,” as applied
to bar pre-enforcement challenges to the validity of tax regulations, causes substantial
hardship to taxpayers that are adversely affected by particular tax regulations and
that would like to challenge the validity of
these regulations ........................................ 20

CONCLUSION..................................................... 24

iv
TABLE OF AUTHORITIES
Page
CASES
Abbott Laboratories v. Gardner, 387 U.S. 136
(1967) ................................................................... 3, 20
Alexander v. “Americans United” Inc., 416 U.S.
752 (1974) ........................................................ passim
Bob Jones University v. Simon, 416 U.S. 725
(1974) ............................................................... passim
Direct Marketing Association v. Brohl, 135 S. Ct.
1124 (2015) ...................................................... passim
Enochs v. Williams Packing & Navigation Co.,
Inc., 370 U.S. 1 (1962)...................................... passim
Florida Bankers Association v. Treasury, 19
F. Supp. 3d 111 (D.D.C. Cir. 2014) ..........................16
Florida Bankers Association v. Treasury, 799
F.3d 1065 (D.C. Cir. 2015) ....................... 7, 15, 16, 17
STATUTES
5 U.S.C. §§ 701-706 .......................................................3
Tax Injunction Act, 28 U.S.C. § 1341 ..........................13
OTHER AUTHORITIES
Patrick J. Smith, Challenges to Tax Regulations:
The APA and the Anti-Injunction Act, Tax
Notes, May 25, 2015 ..................................................1
Patrick J. Smith, D.C. Circuit in Florida Bankers
Misapplies Anti-Injunction Act, Tax Notes, December 21, 2015.........................................................2

v
TABLE OF AUTHORITIES – Continued
Page
Patrick J. Smith, Is the Anti-Injunction Act Jurisdictional?, Tax Notes, November 28, 2011 ...........1
Patrick J. Smith, Life After Mayo: Silver Linings,
Tax Notes, June 20, 2011 ..........................................1
Patrick J. Smith, Pre-Enforcement Challenges
and the Anti-Injunction Act, Tax Notes, May
14, 2018 .....................................................................1
Patrick J. Smith, The APA’s Arbitrary and Capricious Standard and IRS Regulations, Tax
Notes, July 16, 2012 ..................................................1

1
INTEREST OF AMICUS CURIAE
The amicus curiae has been a practicing tax attorney in the District of Columbia since 1981.1 In addition, amicus has written extensively on various issues
relating to challenges to the validity of federal tax regulations. See, e.g., Patrick J. Smith, Life After Mayo: Silver Linings, Tax Notes, June 20, 2011, p. 1251;2 Patrick
J. Smith, The APA’s Arbitrary and Capricious Standard and IRS Regulations, Tax Notes, July 16, 2012, p.
271.3 Amicus is frequently quoted in the tax press on
these types of issues.
Amicus has also written extensively specifically on
the Anti-Injunction Act as it relates to challenges to
the validity of federal tax regulations. See, e.g., Patrick
J. Smith, Is the Anti-Injunction Act Jurisdictional?, Tax
Notes, November 28, 2011, p. 1093;4 Patrick J. Smith,
Challenges to Tax Regulations: The APA and the AntiInjunction Act, Tax Notes, May 25, 2015, p. 915;5 Patrick J. Smith, Pre-Enforcement Challenges and the
1

No party or counsel for a party authored this brief in whole
or in part. No party, counsel for a party, or person other than amicus curiae and his law firm made a monetary contribution intended to fund the preparation or submission of the brief. Both
parties consented to the filing of this brief.
2
Available at https://papers.ssrn.com/sol3/papers.cfm?abstract_
id=1866497
3
Available at https://papers.ssrn.com/sol3/papers.cfm?abstract_
id=2111136
4
Available at https://papers.ssrn.com/sol3/papers.cfm?abstract_
id=1963869
5
Available at https://papers.ssrn.com/sol3/papers.cfm?abstract_
id=2615726

2
Anti-Injunction Act, Tax Notes, May 14, 2018, p. 1001;6
Patrick J. Smith, D.C. Circuit in Florida Bankers Misapplies Anti-Injunction Act, Tax Notes, December 21,
2015, p. 1493.7 The last listed of these articles was cited
in Judge Nalbandian’s dissent in this case.
Based on his research, writing, and reflection in
connection with the Anti-Injunction Act, amicus has a
strong professional interest in an authoritative determination of the proper interpretation of the Anti-Injunction Act, particularly as it relates to challenges to
the validity of tax regulations. In particular, as expressed in this brief, amicus believes that, under a
proper interpretation of the Anti-Injunction Act, the
Act does not apply in a case where the plaintiff is challenging the validity of a tax regulation, and where, during the time the suit is being maintained, the plaintiff
has not engaged in any activity that would provide a
basis for the IRS to assert that the plaintiff owes a tax
liability under the regulation that is being challenged.
------------------------------------------------------------------

SUMMARY OF ARGUMENT
In the case of all regulations issued by all federal
administrative agencies, other than tax regulations issued by the Internal Revenue Service and the Treasury Department, the way in which parties that are
6

Available at https://papers.ssrn.com/sol3/papers.cfm?abstract_
id=3445071
7
Available at https://papers.ssrn.com/sol3/papers.cfm?abstract_
id=2710600

3
adversely affected by such regulations ordinarily challenge the validity of such regulations is to bring suit in
federal district court, soon after the regulations are issued, without the need to first have the regulations applied to such parties as a prerequisite to bringing suit.
In Abbott Laboratories v. Gardner, 387 U.S. 136 (1967),
the Court held that such pre-enforcement challenges
to the validity of regulations issued by federal administrative agencies are authorized by the Administrative Procedure Act, 5 U.S.C. §§ 701-706.
However, in the case of tax regulations issued by
the IRS and Treasury, the prevailing view has been
that pre-enforcement challenges to the validity of such
regulations are barred by the AIA. This view is based
on two 1974 decisions of the Court, Bob Jones University v. Simon, 416 U.S. 725 (1974), and Alexander v.
“Americans United” Inc., 416 U.S. 752 (1974), which
substantially expanded the scope of the AIA, without
providing any rationale for doing so that had any basis
in the text of the AIA, and without even acknowledging
that this expansion was taking place.
Instead, based on these two 1974 decisions, the
prevailing view has been that the validity of tax regulations issued by the IRS and Treasury may be challenged only in the same types of litigation in which all
other tax issues are litigated, namely, tax refund litigation and challenges in the Tax Court to deficiency
notices issued by the IRS, in each case only after the
challenged regulations have been applied to the taxpayer making the challenge. However, the inability of
taxpayers to engage in pre-enforcement challenges to

4
the validity of tax regulations creates two very substantial disadvantages for taxpayers who are adversely affected by particular tax regulations and who
would like to challenge these regulations.
First, a decision by a court on the merits of a challenge will necessarily come much later, in comparison
to a pre-enforcement challenge, when the challenge
must be made in the conventional forms of tax litigation, because of the need to have the regulation first
applied to particular actions by a specific taxpayer before a challenge can be begun. Second, and even more
significant, in order for a taxpayer to be able to challenge the validity of a tax regulation through the conventional forms of tax litigation, the taxpayer must
first engage in actions that make the regulation applicable to the taxpayer.
However, if the challenge fails, the taxpayer will
then be burdened with the adverse tax consequences
resulting from application of the regulation to the taxpayer’s actions. In many cases, this second disadvantage means that certain tax regulations are
effectively immune from challenge, because the adverse tax consequences of a failed challenge to these
regulations will be too severe and substantial for any
taxpayer to risk.
Of course, if the bar on pre-enforcement challenges
to the validity of tax regulations were dictated by the
clear text of the AIA, there would be no basis for objecting to this broad view of the scope of the AIA. However, the text of the AIA says absolutely nothing about

5
challenges to the validity of tax regulations. Instead, in
the 1962 decision of this Court that was the most recent decision on the AIA before the two 1974 decisions
noted above, Enochs v. Williams Packing & Navigation
Co., Inc., 370 U.S. 1 (1962), the Court stated that the
AIA barred only suits relating to “taxes alleged to be
due.”
In the case of pre-enforcement challenges to the
validity of tax regulations, where the party bringing
the challenge has not engaged in any actions that
would provide a basis for the IRS to apply the regulations to that party, there is no possibility of any taxes
being “alleged to be due” based on the application of
the challenged regulation, and, accordingly, the AIA
should not apply to such a case. In the present case,
petitioner has fully complied with all the requirements
of Notice 2016-66, and, as a result, there would be no
basis for the IRS to assert that petitioner owes the penalty for non-compliance with the requirements of the
notice that, according to the Sixth Circuit, forms the
basis for applying the AIA in the present case. If application of the AIA is properly limited to cases involving
“taxes alleged to be due,” it is clear that the AIA is not
applicable to this case.
The Court’s 2015 decision in Direct Marketing Association v. Brohl, 135 S. Ct. 1124 (2015), interpreted
the AIA’s sister statute, the Tax Injunction Act, in a
careful and precise way that is entirely incompatible
with the extremely broad interpretation of the AIA
that was applied in the two 1974 decisions referred to
above. Direct Marketing is extremely relevant to the

6
proper interpretation of the AIA both because, as the
Court noted in that case, the TIA is modeled on the
AIA, and also because, as the Court also noted in that
case, “[i]n defining the terms of the TIA, we have looked
to federal tax law as a guide.” Id. at 1129.
Just as “the TIA is not keyed to all activities that
may improve a State’s ability to assess and collect
taxes,” id. at 1131, likewise, the AIA is not directed at
all activities relating to the overall federal tax system.
In Direct Marketing, the actions that would provide a
basis for the taxing authority to assert a liability for
taxes owed, namely, sales to Colorado residents by outof-state retailers, had already taken place at the time
of the suit, but in spite of that fact, the Court nevertheless held the TIA was inapplicable. Where the actions
by the plaintiff that would provide a basis for the IRS
to assert a federal tax liability against the plaintiff
have not taken place at the time of the suit, the AIA
should not be applicable.
Although many court decisions have justified a
broad reading of the AIA on the basis of the need to
assure an uninterrupted flow of tax revenue to the federal government, nevertheless, since 1924, this rationale has been seriously undermined by the fact that
in most cases involving a tax liability that is asserted
by the IRS against individuals, businesses, and other
entities, the Tax Court is available as a forum where
the party against which the tax liability is asserted has
the ability to contest the asserted tax liability without
first having to pay the contested tax. As a result, the
need to assure an uninterrupted flow of tax revenue to

7
the federal government no longer provides an adequate justification for a broad reading of the scope of
the AIA.
The D.C. Circuit decision in Florida Bankers Association v. Treasury, 799 F.3d 1065 (D.C. Cir. 2015),
which was relied on by the Sixth Circuit majority in
this case, distinguished Direct Marketing on a trivial
basis and completely ignored the relevance of the reasoning in Direct Marketing to the interpretation of the
AIA. Because Florida Bankers did not even consider
the potential application of the reasoning in Direct
Marketing to the proper interpretation of the AIA, the
decision in Florida Bankers should be given no weight
in this case.
------------------------------------------------------------------

ARGUMENT
I.

The Anti-Injunction Act applies only
where the taxes that are relied on by the
government as the basis for applying the
Act are taxes that are “alleged to be [currently] due.”
A. Williams Packing established that the
Anti-Injunction Act applies only where
the taxes involved in the suit are taxes
that are “alleged to be [currently] due.”

The AIA provides in relevant part as follows: “no
suit for the purpose of restraining the assessment or
collection of any tax shall be maintained in any court
by any person.”

8
The Court’s 1962 decision in Williams Packing
succinctly described the “manifest purpose” of the AIA
in part as follows: “The manifest purpose of section
7421(a) is to permit the United States to assess and
collect taxes alleged to be due without judicial intervention. . . .” 370 U.S. at 7 (emphasis added). Earlier in the
opinion, the Court referred to the AIA as applying only
to cases challenging “the collection of federal taxes not
lawfully due.” Id. at 6. And at the end of the opinion,
the Court noted that “in general, the Act prohibits suits
for injunctions barring the collection of federal taxes
when the collecting officers have made the assessment
and claim that it is valid.” Id. at 8. Thus, in order for a
suit against the government relating to taxes to be
barred by the AIA, the suit must relate to taxes that
are “alleged to be [currently] due.”
Where the plaintiff in a suit challenging the validity of a tax regulation issued by the IRS and Treasury
has not, before or during the time the suit is pending,
engaged in the type of activity that would cause the
plaintiff to owe taxes under the challenged regulation
(or penalties that are treated as taxes for purposes of
the AIA), then the suit cannot possibly relate to taxes
that are “alleged to be due” within the meaning of this
test from Williams Packing. As a result, the AIA cannot
possibly bar the suit under these circumstances.
In the present case, the plaintiff has fully complied
with the information reporting requirements that
were imposed by Notice 2016-66. As a result, there are
no penalties for non-compliance that could possibly be
“alleged to be due” from the plaintiff as a result of the

9
issuance of the notice. Accordingly, the AIA is not applicable to the present case.
Thus, in a case where the plaintiff might potentially, at some indefinite time in the future, owe taxes
(or tax-equivalent penalties) under the challenged regulation, based on activity the plaintiff might potentially engage in at some indefinite point in the future
that would cause the plaintiff to owe taxes (or taxequivalent penalties) as a result of application of the
challenged regulation, this type of speculative, uncertain, and completely conditional and contingent potential future tax liability is not sufficient to bring the AIA
into effect. Such merely potential future tax liability is
clearly not sufficient to satisfy the test that there must
be “taxes alleged to be [currently] due” in order for the
AIA to be applicable.
The principle that there must be “taxes alleged to
be [currently] due” in order for the AIA to be applicable
is not in any way limited to situations where the plaintiff is challenging a regulatory mandate that does not
affect the plaintiff ’s actual current or future income
tax liability, but where there is a penalty for non-compliance with the regulatory mandate that is treated as
a tax for purposes of the AIA. Instead, the principle
that there must be “taxes alleged to be [currently] due”
in order for the AIA to be applicable also applies in
cases where the “tax” for purposes of the AIA is an actual income tax that might potentially be imposed on
the plaintiff based on applying the challenged income
tax regulation to activity the plaintiff might possibly
engage in at some time in the future, but has not yet

10
engaged in at the time the suit is being maintained.
Unless the plaintiff has in fact already engaged in the
activity that would result in additional income tax liability under the challenged regulation as of the time
the suit is being maintained, the AIA does not bar the
plaintiff ’s suit challenging the validity of the regulation.
B. Bob Jones University and “Americans
United” substantially expanded the
scope of the Anti-Injunction Act far beyond suits involving “taxes alleged to
be [currently] due,” without either acknowledging or justifying this expansion.
Despite the clear principle that was articulated in
Williams Packing as to the circumstances in which the
AIA applies, namely, to suits involving “taxes alleged
to be [currently] due,” nevertheless, in two decisions issued on the same day in 1974, the Court very substantially expanded the scope of the AIA in comparison to
the scope articulated a mere twelve years before in
Williams Packing. In Bob Jones University, supra, and
“Americans United,” supra, the Court held that where
previously tax-exempt organizations challenged the
revocation of their tax-exempt status by the IRS, application of the AIA barred these challenges, based at
least in part on the fact that success by the organizations in their challenges would reduce the amount of
income taxes that might be owed in the future by donors to the organizations based on potential future

11
contributions to the organizations by these donors and
based on the future income tax deductions the donors
would be able to claim with respect to these potential
future contributions. “[P]etitioner seeks to restrain the
collection of taxes from its donors—to force the Service
to continue to provide advance assurance to those donors that contributions to petitioner will be recognized
as tax deductible, thereby reducing their tax liability.”
Bob Jones University, 416 U.S. at 739 (emphasis
added). “The obvious purpose of respondent’s action
was to restore advance assurance that donations to it
would qualify as charitable deductions under § 170
that would reduce the level of taxes of its donors.”
“Americans United,” 416 U.S. at 760-61 (emphasis
added).
These two 1974 decisions did not acknowledge
that they were substantially expanding the scope of
the AIA in comparison to the scope that had been contemplated in Williams Packing. Instead, these decisions claimed to be merely applying the understanding
of the AIA that had been applied in Williams Packing.
“[T]he Court’s unanimous opinion in Williams Packing
indicates that the case was meant to be the capstone
to judicial construction of the Act.” Bob Jones University, 416 U.S. at 742.
While these 1974 decisions cited Williams Packing
as support for the approach that was taken in these
cases, the decisions resorted to paraphrase in citing
the language from Williams Packing quoted above, presumably in order to avoid having to address the clear
statement in Williams Packing that the AIA applies

12
only to suits involving “taxes alleged to be due.” See,
e.g., Bob Jones University, 416 U.S. at 736 (“The Court
has interpreted the principal purpose of this language
to be the protection of the Government’s need to assess
and collect taxes [omitting the qualifying language “alleged to be due”] as expeditiously as possible with a
minimum of pre-enforcement judicial interference.”).
Since these two 1974 decisions did not acknowledge
that they were expanding the scope of the AIA, they
likewise did not make any attempt to justify this expansion.
Based on the extremely broad scope of the AIA as
applied in these two 1974 decisions, the lower courts in
subsequent cases have interpreted the AIA as barring
any district court litigation relating in any way to federal income taxes (other than actual tax refund suits),
if success by the plaintiffs in the litigation has any potential for reducing the total amount of tax revenue
that will be received by the federal government, no
matter how remote and attenuated the relationship
between the litigation and this potential reduction in
tax revenue. Thus, pre-enforcement challenges to the
validity of tax regulations have been viewed as being
barred by the AIA if there is any potential that the litigation might result in any adverse effect on federal
tax revenue.

13
C. Direct Marketing requires a return to
the test from Williams Packing that the
Anti-Injunction Act applies only to
suits involving taxes that are “alleged
to be [currently] due.”
This remained the state of the legal landscape regarding the scope of the AIA from 1974 until the
Court’s 2015 decision in Direct Marketing. Direct Marketing was a challenge to the constitutionality of a Colorado statute requiring out-of-state retailers to file
information returns with the state reporting on sales
of merchandise to Colorado residents. Colorado contended that this suit was barred by the Tax Injunction
Act, 28 U.S.C. § 1341, which provides that “[t]he district courts shall not enjoin, suspend or restrain the assessment, levy or collection of any tax under State law.”
The Tenth Circuit agreed with Colorado, but the Court
disagreed.
The Court began its analysis as follows:
In defining the terms of the TIA, we have
looked to federal tax law as a guide. Although
the TIA does not concern federal taxes, it was
modeled on the Anti-Injunction Act (AIA),
which does. The AIA provides in relevant part
that “no suit for the purpose of restraining the
assessment or collection of any tax shall be
maintained in any court by any person.” We
assume that words used in both Acts are

14
generally used in the same way, and we discern the meaning of the terms in the AIA by
reference to the broader Tax Code.
135 S. Ct. at 1129 (citations omitted).
The Court interpreted the terms “assessment,”
“levy,” and “collection” in the TIA by reference to the
meaning these terms have in the Internal Revenue
Code and concluded that “these three terms refer to
discrete phases of the taxation process that do not include informational notices or private reports of information relevant to tax liability.” Id. “[T]he TIA is not
keyed to all activities that may improve a State’s ability to assess and collect taxes. . . . The TIA is keyed to
the acts of assessment, levy, and collection themselves,
and enforcement of the notice and reporting requirements is none of these.” Id. at 1131.
The Court also rejected the broad reading given by
the Tenth Circuit to the term “restrain.” “The Court of
Appeals’ definition of ‘restrain,’ . . . leads the TIA to bar
every suit with . . . a negative impact” on the amount
of tax revenue collected by a state. Id. at 1133. “Applying the correct definition, a suit cannot be understood
to ‘restrain’ the ‘assessment, levy or collection’ of a
state tax if it merely inhibits those activities.” Id.
The broad scope of the TIA that was rejected by
the Court in Direct Marketing is essentially equivalent
to the broad scope of the AIA that was applied in Bob
Jones University and “Americans United.” While Direct
Marketing did not deal directly with the AIA, nevertheless, the fact that the AIA, and the Internal Revenue

15
Code generally, played such a central role in the
Court’s reasoning in Direct Marketing clearly undermines the validity of the broad understanding of the
scope of the AIA that was applied in Bob Jones University and “Americans United.” Unless the Court is willing to impose a substantial inconsistency and disparity
between the scope of the TIA and the scope of the AIA,
the broad scope of the AIA that was applied in Bob
Jones University and “Americans United” must be rejected as inconsistent with Direct Marketing.
D. Florida Bankers ignored the reasoning
in Direct Marketing.
The first court of appeals case in which the potential effect of Direct Marketing on the interpretation of
the AIA was presented as an issue was the 2015 D.C.
Circuit Florida Bankers case, which was pending at
the time the Direct Marketing decision was issued.
Florida Bankers was a challenge to the validity of a
regulation issued by the IRS and Treasury that required banks to submit information returns to the IRS
regarding accounts in the banks held by non-resident
aliens. Although non-resident aliens are not subject to
federal income taxation by the United States on the
interest earned on such accounts, nevertheless, the
IRS and Treasury justified the information reporting
requirement as being necessary to assist in satisfying
obligations of the United States under informationsharing agreements with other countries.

16
The district court in Florida Bankers Association
v. Treasury rejected the government’s argument that
the suit was barred by the AIA but also rejected the
plaintiff ’s challenge to the validity of the regulations
on the merits. 19 F. Supp. 3d 111 (D.D.C. 2014). In rejecting the government’s reliance on the AIA, the district court noted that none of the member banks in the
plaintiff bankers association had violated the reporting requirement imposed by the regulation that was
being challenged. Id. at 121.
However, the D.C. Circuit, in a split decision, held
the AIA barred the suit. The majority opinion did not
address the issue of what relevance the reasoning in
Direct Marketing has with regard to the proper interpretation of the AIA. The majority opinion in Florida
Bankers instead distinguished Direct Marketing on the
basis that the penalty for non-compliance with the reporting requirement that was being challenged in Florida Bankers is treated as a tax for purposes of the AIA,
whereas there was no indication in Direct Marketing
that the penalties for non-compliance with the reporting requirements at issue in that case were treated as
taxes within the meaning of the TIA. Instead of addressing the relevance of the reasoning in Direct Marketing to the proper interpretation of the AIA, the
majority opinion in Florida Bankers simply applied the
broad understanding of the scope of the AIA derived
from Bob Jones University and “Americans United” to
hold that the AIA was applicable to the challenge.
The failure of the Florida Bankers majority opinion to consider the potential effect of Direct Marketing

17
on the proper interpretation of the AIA has the consequence that the Florida Bankers opinion should be
given no weight in this case. As a result, the Sixth Circuit was mistaken to rely on Florida Bankers in this
case.
II.

The existence of the Tax Court as a forum
where taxpayers are able to contest a tax
liability asserted against them by the IRS,
without first having to pay the amount of
the contested tax, very substantially undercuts the traditional rationale for the
Anti-Injunction Act that has been invoked
in support of a broad application of the
Act.

The passage from Williams Packing quoted in part
earlier contains additional material that is relevant to
this case. The complete passage is as follows:
The manifest purpose of § 7421(a) is to permit
the United States to assess and collect taxes
alleged to be due without judicial intervention, and to require that the legal right to the
disputed sums be determined in a suit for refund. In this manner the United States is assured of prompt collection of its lawful
revenue.
370 U.S. at 7. A footnote to the second sentence in this
passage contains the following quotation from the legislative history of the TIA as an explanation for the rationale of the need for “prompt collection of . . . lawful
[federal tax] revenue”:

18
The existing practice of the Federal courts in
entertaining tax-injunction suits against
State officers makes it possible for foreign corporations doing business in such States to
withhold from them and their governmental
subdivisions, taxes in such vast amounts and
for such long periods of time as to seriously
disrupt State and county finances. The pressing needs of these States for this tax money is
so great that in many instances they have
been compelled to compromise these suits, as
a result of which substantial portions of the
tax have been lost to the States without a judicial examination into the real merits of the
controversy.
Id. n.6.
Thus, Williams Packing, and many subsequent
lower court decisions, have relied, in interpreting the
AIA, on the proposition that the underlying purpose of
the AIA is to assure a steady flow of tax revenue to the
federal government, by requiring that taxpayers pursue disputes about their liability for federal taxes only
in tax refund suits that are necessarily filed only after
the taxpayers have paid the amount of the disputed
taxes. The reliance on this rationale as a basis for giving the AIA a broad scope completely ignores the fact
that since the creation of the predecessor to the Tax
Court in 1924, in the overwhelming majority of cases
involving disputes between taxpayers and the IRS regarding the amount of the taxpayers’ liabilities for federal taxes, taxpayers have been able to litigate these
disputes in the Tax Court without being required to

19
first pay the amount of the disputed taxes as a prerequisite to engaging in the litigation.
The indisputable purpose for the existence of the
Tax Court and its predecessors is to permit taxpayers
to litigate the propriety of a tax deficiency asserted
against them by the IRS without first having to pay
the contested taxes. In light of the availability of the
Tax Court as a forum for taxpayers to litigate tax liabilities asserted against them by the IRS without first
paying the contested tax, the rationale for a broad interpretation of the AIA as being necessary to assure an
uninterrupted flow of tax revenue to the federal government no longer makes any sense.
The significance of the availability of the Tax
Court as a forum for taxpayers to litigate their tax disputes with the IRS without first having to pay the disputed tax does not seem to have been recognized in any
decided cases addressing the scope or applicability of
the AIA. However, the failure of the courts to so far recognize the significance of the availability of the Tax
Court with regard to the proper interpretation of the
AIA does not excuse continued reliance on the rationale of the need for an uninterrupted flow of tax revenue to the federal government as a justification for a
broad interpretation of the scope of the AIA.

20
III. The broad interpretation of the Anti-Injunction Act that was adopted in Bob Jones
University and “Americans United,” as applied to bar pre-enforcement challenges to
the validity of tax regulations, causes substantial hardship to taxpayers that are
adversely affected by particular tax regulations and that would like to challenge
the validity of these regulations.
In the case of all regulations issued by federal administrative agencies, other than tax regulations issued by the IRS and Treasury, private parties who
could be adversely affected by these regulations are
able to bring pre-enforcement challenges to the validity of those regulations without first having made
themselves subject to these adverse effects. This proposition was established by the Court’s decision in Abbott Laboratories, supra.
However, as a result of the Bob Jones University
and “Americans United” decisions, private parties who
believe they could be adversely affected by federal tax
regulations issued by the IRS and Treasury have been
precluded from bringing pre-enforcement challenges to
the validity of these regulations. Instead, in order to
challenge the validity of federal tax regulations, these
private parties have been forced to follow the traditional routes for challenging actions by the IRS,
namely, either tax refund suits in district court or the
Court of Federal Claims or petitions for redetermination of tax deficiencies in the Tax Court.

21
The restriction that challenges to the validity of
federal tax regulations may be pursued only in the Tax
Court or in tax refund cases imposes two very severe
disadvantages for private parties who could be adversely affected by federal tax regulations in comparison to bringing pre-enforcement challenges to tax
regulations. First, there is a substantial time delay in
obtaining a judicial resolution of a challenge pursued
either in Tax Court or in tax refund cases in comparison to pre-enforcement challenges pursued in federal
district court, because of the need for the challenged
regulation to first be applied to a particular taxpayer
for a particular taxable year before any challenge to
the validity of the regulations can be brought.
Challenges in either the Tax Court or tax refund
litigation require that before bringing the challenge,
the taxpayer must first engage in actions that would
make the regulation to be challenged apply to these actions by the taxpayer in a way that would increase the
federal tax liability of the taxpayer. In the case of challenges in the Tax Court, it is then necessary for the
taxpayer to file a tax return reporting these actions as
not being subject to the regulations, have that treatment examined by the IRS, and have the IRS issue a
notice of deficiency based on the taxpayer’s failure to
apply the regulations. Only then is the taxpayer able
to bring its challenge in Tax Court. The foregoing process ordinarily takes at least several years to play out.
In contrast, if the pre-enforcement challenge route
were available, challenges to the regulations could be

22
brought in federal district court as soon as the regulations were issued in final form.
In the case of challenges to the validity of tax regulations that are raised in tax refund suits, like challenges in Tax Court, it is necessary for taxpayers
wishing to challenge the validity of federal tax regulations to engage in actions that would make them subject to the regulations and file a tax return in which
those actions are reported. However, in contrast to Tax
Court challenges, taxpayers would apply the regulations in their tax returns with the resulting increase
in tax liability. The taxpayers would then need to file a
refund claim with the IRS before being able to file a
tax refund suit. If the IRS considers the refund claim,
this process could again take several years to play out.
In addition to the serious disadvantage resulting
from the inevitable delay in the timing of a challenge
in comparison to pre-enforcement challenges, the requirement to pursue challenges to federal tax regulations only in Tax Court or in tax refund litigation
presents a second very serious disadvantage that is
even more severe than the disadvantage resulting
from delay. This second very severe disadvantage results from the fact, noted above, that in order to engage
in challenges to the validity of federal tax regulations
either in Tax Court or in tax refund litigation, the taxpayer who wishes to bring the challenge must first engage in actions that would make the regulation the
taxpayer wishes to challenge applicable to these actions by the taxpayer.

23
However, if the challenge is unsuccessful, the taxpayer will then be burdened with the adverse tax consequences that result from applying the regulation to
the activity that it was necessary for the taxpayer to
engage in so as to be able to bring the challenge. In
many cases, these adverse tax consequences will be so
consequential that no taxpayer will be willing to take
the risk of subjecting themselves to these consequences in the event the challenge is unsuccessful. In
those cases, the regulations will effectively be immune
from challenge.
Because of these significant disadvantages to pursuing challenges to the validity of tax regulations
through the conventional forms of tax litigation, many
tax regulations that have significant procedural and
substantive flaws are never challenged. If this result
were clearly required by the AIA, there would be no
legal basis for objecting to that result. However, the
AIA does not require this result. Instead, if the AIA is
properly interpreted, as it was in Williams Packing, as
being applicable only in cases relating to taxes that are
“alleged to be due,” pre-enforcement challenges to the
validity of tax regulations will frequently be available.
------------------------------------------------------------------

24
CONCLUSION
Based on the reasons set forth above, the decision
of the Sixth Circuit should be reversed.
Respectfully submitted,
PATRICK J. SMITH
Counsel of Record
IVINS, PHILLIPS & BARKER,
CHARTERED
1717 K Street, NW
Suite 600
Washington, DC 20006
202-662-3415
psmith@ipbtax.com

